No. 19-968
IN THE SUPREME COURT OF THE UNITED STATES
_________________
CHIKE UZUEGBUNAM, ET AL., PETITIONERS
v.
STANLEY C. PRECZEWSKI, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MOTION OF THE UNITED STATES FOR LEAVE TO PARTICIPATE IN ORAL
ARGUMENT AS AMICUS CURIAE AND FOR DIVIDED ARGUMENT, via email and
first-class mail, postage prepaid, this 16th day of November, 2020.
[See Attached Service List]

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
November 16, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0968
UZUEGBUNAM, CHIKE, ET AL.
STANLEY C. PRECZEWSKI, ET AL.

LISA SCHIAVO BLATT
WILLIAMS & CONNOLLY LLP
725 12TH STREET, NW
WASHINGTON, DC 20005
LBLATT@WC.COM
JOHN J. BURSCH
ALLIANCE DEFENDING FREEDOM
440 FIRST STREET, NW
SUITE 600
WASHINGTON, DC 20001
616-450-4235
JBURSCH@ADFLEGAL.ORG
MATTHEW JAMES CLARK
FOUNDATION FOR MORAL LAW
1 DEXTER AVE
MONTGOMERY , AL 36104
CYNTHIA FLEMING CRAWFORD
AMERICANS FOR PROSPERITY FOUNDATION
1310 N. COURTHOUSE ROAD
7TH FLOOR
ARLINGOTN, VA 22201
571-329-2227
CCRAWFORD!AFPHQ.ORG

ALLEN JOSEPH DICKERSON
INSTITUTE FOR FREE SPEECH
1150 CONNECTICUT AVENUE, NW
SUITE 801
WASHINGTON, DC 20036
202-301-9000
ADICKERSON@IFS.ORG
FRANK DAWSON GARRISON
NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, INC.
8001 BRADDOCK ROAD
SUITE 600
SPRINGFIELD, VA 22160
703-321-8510
FDG@NRTW.ORG
SCOTT WILLIAM GAYLORE
ELON UNIV. SCHOOL OF LAW
APPELLATE CLINIC
201 NORTH GREENE STREET
GREENSBORO, NC 27401
JAMES L. HIRSEN
505 S. VILLA REAL DRIVE,
SUITE 208
ANAHEIM HILLS , CA 92807
714-283-8880
JAMES@JAMESSHIRSEN.COM
DANIEL PATRICK KEARNEY, JR.
WILMER CUTLER PICKERING HALE & DORR,
LLP
1875 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20006

ADELE AUXIER KEIM
THE BECKET FUND FOR RELIGIOUS LIBERTY
1200 NEW HAMPSHIRE AVENUE, NW
SUITE 700
WASHINGTON , DC 20036
202-955-0095
AKEIM@BECKETLAW.ORG
SCOTT A. KELLER
BAKER BOTTS LLP
700 K STREET, N.W.
WASHINGTON, DC 20001
KEVIN FRANZ KING
COVINGTON & BURLING LLP
ONE CITY CENTER
850 TENTH STREET, NW
WASHINGTON, DC 20001
DEBORAH JOYCE LAFETRA
PACIFIC LEGAL FOUNDATION
930 G STREET
SACRAMENTO, CA 95814
916-419-7111
DLAFETRA@PACIFICLEGAL.ORG
ELBERT LIN
HUNTON ANDREWS KURTH LLP
951 E BYRD STREET
RIVERFRONT PLAZA
EAST TOWER
RICHMOND , VA 23219-4074

MICHAEL J. LOCKERBY
FOLEY & LARDNER LLP
WASHINGTON HARBOUR
3000 K STREET, N.W.
SUITE 600
WASHINGTON, DC 20007
202-945-6079
MLOCKERBY@FOLEY.COM
LENA FATINA MASRI
CAIR LEGAL DEFENSE FUND
453 NEW JERSEY AVE. SE
WASHINGTON, DC 20003
TODD R. MCFARLAND
GENERAL CONFERENCE OF SEVENTH-DAY
ADVENTISTS
OFFOCE OF GENERAL COUNSEL
12501 OLD COLUMBIA PIKE
SILVER SPRING, MD 20904
301-580-6321
MCFARLAND@GC.ADVENTIST.ORG
MICHAEL HUGH MCGINLEY
DECHERT LLP
1900 K STREET, NW
WASHINGTON, DC 20006
202-261-3378
MICHAEL.MCGINLEY@DECHERT.COM
MONICA LYNN MILLER
AMERICAN HUMANIST ASSOC.
1821 JEFFERSON PLACE NW
WASHINGTON, DC 20036

ANDREW ALAN PINSON
OFFICE OF THE GEORGIA ATTORNEY
GENERAL
40 CAPITAL SQUARE SW
ATLANTA, GA 30334-1300
404-651-9453
APINSON@LAW.GA.GOV
MATTHEW ADAM SELIGMAN
PUBLIC CITIZEN
1600 20TH STREET NW
WASHINGTON, DC 20009
917-428-6055
MSELIGMAN@CITIZEN.ORG
REED NEAL SMITH
CHRISTIAN LEGAL SOCIETY CENTER FOR
LAW AND RELIGIOUS FREEDOM
8001 BRADDOCK RD
STE 302
SPRINGFIELD, VA 22151
703-894-1081
RSMITH@CLSNET.ORG
MATHEW D. STAVER
LIBERTY COUNSEL
PO BOX 540774
ORLANDO , FL 327854
800-671-1776
COURT@LC.ORG
KRISTEN KELLIE WAGGONER
ALLIANCE DEFENDING FREEDOM
440 FIRST STREET, N.W
SUITE 600
WASHINGTON, DC 20001
202-393-8690
KWAGGONER@ADFLEGAL.ORG

